Case: 19-10453

Document: 00515398959

Page: 1

Date Filed: 04/29/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-10453

BENJAMIN FRANKLIN,
Plaintiff - Appellant
v.

GLENNA S. BLAIR,
Defendant - Appellee

Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING
Before DENNIS, ELROD, and DUNCAN, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

ENTERED FOR THE COURT:
/s/ James L. Dennis
UNITED STATES CIRCUIT JUDGE

A

^ FILED
April 8,(33g8)7:15-cv-00164-O Document 46 Filed 04/08/20

Page 1 of 4 PagelD 167

KAREN MITCHELL
CLERK, U.S. DISTRICT COURT

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10453

FILED
March 17, 2020
Lyle W. Cayce
Clerk

BENJAMIN FRANKLIN,
Plaintiff-Appellant
v.
GLENNA S. BLAIR,
Defendant-Appellee

Appeal from the United States District Court
for the Northern District of Texas
USDCNo. 7:15-CV-164

Before DENNIS, ELROD, and DUNCAN, Circuit Judges.
PER CURIAM:*
Benjamin Franklin, Texas prisoner # 01561085, filed a 42 U.S.C. § 1983
complaint against Glenna S. Blair, a prison official in the James V. Allred Unit
of the Texas Department of Criminal Justice, alleging that she deprived him
of a DVD that he ordered from a Christian bookstore, violating his due process
rights, his right to exercise his religion, and his rights under the Religious
Land Use and Institutionalized Persons Act (RLUIPA). The district court
dismissed one claim in part without prejudice, dismissed his remaining claims
* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

4PPENt>i)C. C

Case 7:15-cv-00164-0 Document 46 Filed 04/08/20
No. 19-10453

Page 2 of 4 PagelD 168

with prejudice as frivolous pursuant to 28 U.S.C. § 1915(g), and certified that
an appeal would not be taken in good faith. Franklin now requests leave to
proceed in forma pauperis (IFP) on appeal.
“An appeal may not be taken [IFP] if the trial court certifies in writing
that it is not taken in good faith.”

§ 1915(a)(3).

Franklin’s IFP motion is

construed as a challenge to the district court’s certification decision. See Baugh
v. Taylor, 117 F.3d 197, 202 (5th Cir. 1997).

In determining whether a

nonfrivolous issue exists, our inquiry “is limited to whether the appeal involves
legal points arguable on their merits (and therefore not frivolous).” Howard v.
King, 707 F.2d 215, 220 (5th Cir. 1983) (internal quotation marks and citations
omitted). If we uphold the district court’s certification, Franklin must pay the
filing fee, or the appeal will be dismissed for want of prosecution. See Baugh,
117 F. 3d at 202. Alternatively, “where the merits are so intertwined with the
certification decision as to constitute the same issue,” we may deny the IFP
motion and dismiss the appeal sua sponte if it is frivolous. Id. at 202 & n.24;
see 5TH CIR. R. 42.2.
Franklin argues that the district court abused its discretion when it
denied his motion to amend his complaint. The court instructed Franklin that
he could file a motion to amend if he included a copy of the proposed amended
complaint on the proper form. However, Franklin failed to do so. Over a year
later, the district court ordered him to answer a questionnaire concerning his
claims. By requesting a more definite statement through a questionnaire, the
district court gave Franklin an opportunity to amend his complaint. See Eason
v. Thaler, 14 F.3d 8, 9-10 (5th Cir. 1994). Therefore, Franklin has not shown
that the district court abused its discretion when it denied his motion to
amend. See id.

2

Append;*: C

\

Case 7:15-cv-00164-0 Document 46 Filed 04/08/20

Page 3 of 4 PagelD 169

No. 19-10453
The district court did not err in holding that Franklin could not raise a
claim concerning the deprivation of property in a § 1983 action because he has
an adequate postdeprivation remedy of a tort action for conversion under Texas
state law. See Cathey v. Guenther, 47 F.3d 162, 164 (5th Cir. 1995). Further,
Franklin has not shown that the deprivation of the DVD prevented him from
engaging in religious activities or from attending religious services. See Turner
v. Safley, 482 U.S. 78, 89 (1987); Baranowski v. Hart, 486 F.3d 112, 120-22
(5th Cir. 2007). In addition, Franklin may not recover damages from Blair in
her individual or official capacity under the RLUIPA. See Opulent Life Church
v. City of Holly Springs, Miss., 697 F.3d 279, 289-90 (5th Cir. 2012). The
district court correctly found that although the statute authorizes prospective
injunctive relief, Franklin did not seek such relief, and his claims were
conclusional. See Gentilello v. Rege, 627 F.3d 540, 544 (5th Cir. 2010). Finally,
to the extent that Franklin is raising new claims for the first time on appeal,
this court will not consider new claims or new evidence presented for the first
time on appeal. See Burge v. St. Tammany Parish, 336 F.3d 363, 372 (5th Cir.
2003); Leverette v. Louisville Ladder Co., 183 F.3d 339, 342 (5th Cir. 1999).
Franklin has not shown that he will raise a nonfrivolous issue on appeal,
and his appeal is frivolous.

See Howard, 707 F.2d at 220.

Accordingly,

Franklin’s IFP motion is denied and the appeal is dismissed as frivolous. See
Baugh, 117 F.3d at 202 n.24; Howard, 707 F.2d at 220; 5TH ClR. R. 42.2. The
dismissal of this appeal as frivolous and the district court’s dismissal of
Franklin’s § 1983 complaint in part as frivolous count as two strikes under 28
U.S.C. § 1915(g). See Coleman v. Tollefson, 135 S. Ct. 1759, 1761-64 (2015).
Franklin is warned that once he accumulates three strikes, he may not proceed
IFP in any civil action or appeal filed while he is incarcerated or detained in

3

A

i

Case 7:15-cv-00164-0 Document 46 Filed 04/08/20

Page 4 of 4 PagelD 170

No. 19-10453
any facility unless he is under imminent danger of serious physical injury. See
§ 1915(g).
IFP MOTION DENIED; APPEAL DISMISSED; SANCTION WARNING
ISSUED.

4

>* t

}
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
BENJAMIN FRANKLIN,
TDCJ No. 1561085,

§
§
§
§
§
§
§
§
§
§

Plaintiff,
v.
GLENNA S. BLAIR,
Defendant.

Civil Action No. 7:15-cv-164-0

JUDGMENT
This action came on for consideration by the Court, and the issues having been duly
considered and a decision duly rendered,
It is ORDERED, ADJUDGED, and DECREED that Plaintiffs conversion claim is
DISMISSED without prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) as frivolous.
Plaintiffs remaining civil rights claims are DISMISSED with prejudice pursuant to 28
U.S.C. § 1915(e)(2)(B)(i) as frivolous.
SIGNED this 27th day of March, 2019.

£ed O’Connor
)
UNITED STATES DISTRICT JUDGE

(jp £nD i ^ \ 6

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 1 of 7 PagelD 121

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
BENJAMIN FRANKLIN,
TDCJ No. 1561085,
Plaintiff,
v.
GLENNA S. BLAIR,
Defendant.

§
§
§
§
§
§
§
§
§
§

Civil Action No. 7:15-cv-164-0

ORDER DISMISSING CASE
Background
This is a civil rights action filed pursuant to 42 U.S.C. § 1983 by an inmate who, at the time
of filing, was confined in the James V. Allred Unit of the Texas Department of Criminal Justice
(“TDCJ”) in Iowa Park, Texas. Plaintiff states that he ordered a DVD from Christian Book
Distributors. See Complaint, ECF No. 1 at 4. When the DVD arrived at the Allred Unit, Defendant
Blair determined that it was contraband and, as such, Plaintiff was not permitted to have the DVD.
Id. Plaintiff claims that, rather than return the DVD to the distributor as he requested, the DVD was
stolen. Id. He claims to have written the distributor who replied that they did not received the DVD.
Id. In addition to his claim of stolen property, Plaintiff claims that Blair’s unlawful interference with
his religious DVD violated his rights to freedom of speech and due process, and also violated his
rights under the Religious Land Use and Institutionalized Persons Act (“RLUIPA”). Id. at 8.
Plaintiff seeks $10,000.00 in compensatory damages, $10,000.00 in punitive damages, and a
declaration that the act and omissions of Defendant Blair violated his rights. Id. at 4.

: 8
mt l <>?

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 2 of 7 PagelD 122

Legal Standards
A district court may summarily dismiss claims filed by a plaintiff proceeding in forma
pauperis if it concludes that the claims are frivolous or malicious, fail to state a claim on which relief
may be granted, or seek monetary relief against a defendant who is immune from such relief. 28
U.S.C. § 1915(e)(2)(B). To state a claim upon which relief may be granted, a plaintiff must plead
“enough facts to state a claim to relief that is plausible on its face,” Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 570 (2007), and he must plead those facts with enough specificity “to raise a right to
relief above the speculative level,” id. at 555. “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). “The plausibility
standard is not akin to a ‘probability requirement,’ but it asks for more than a sheer possibility that
a defendant has acted unlawfully.” Id. “A claim for relief is implausible on its face when ‘the
well-pleaded facts do not permit the court to infer more than the mere possibility of misconduct.’”
HaroldH. Huggins Realty, Inc. v. FNC, Inc., 634 F.3d 787, 796 (5th Cir. 2011) (quotingIqbal, 556
U.S. at 679).
While, under Federal Rule of Civil Procedure 8(a)(2), a complaint need not contain detailed
factual allegations, a plaintiff must allege more than labels and conclusions, and while the Court
must accept all of the plaintiffs factual allegations as true, it is “‘not bound to accept as true a legal
conclusion couched as a factual allegation.’” Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S.
at 555). A threadbare or formulaic recitation of the elements of a cause of action, supported by mere
conclusory statements, will not suffice. See id.

-2- o F 7

AfHvhf: 8

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 3 of 7 PagelD 123

Deprivation of Property
Plaintiff cannot prevail on his stolen property claim in federal court. The United States
Supreme Court has held that the “unauthorized, intentional deprivation of property” does not
constitute a civil rights violation if there exists a meaningful post-deprivation remedy. Hudson v.
Palmer, 468 U.S. 517, 533 (1984); accordNickens v. Melton, 38 F.3d 183, 184-85 (5th Cir. 1994);
see also Holloway v. Walker, 790 F.2d 1170, 1174 (5th Cir. 1986) (finding no breach of federally
guaranteed constitutional rights, even where a high level state employee intentionally engages in
tortious conduct, as long as the state system as a whole provides due process of law). Under the
circumstances of the instant case, Plaintiff has the state common-law action of conversion available
to remedy his alleged deprivation of property. Murphy v. Collins, 26 F.3d 541, 543-44 (5th Cir.
1994); Myers v. Adams, 728 S.W.2d 771 (Tex. 1987). Conversion occurs when there is an
unauthorized and unlawful exercise of dominion and control over the property of another which is
inconsistent with the rights of the owner. Armstrong v. Benavides, 180 S.W.3d 359,363 (Tex. App.
- Dallas 2005, no writ)', Beam v. Voss, 568 S.W.2d 413, 420-21 (Tex. Civ. App. — San Antonio
1978, no writ). If Defendant Blair exercised unauthorized and unlawful control over Plaintiffs
property, he has a factual basis to allege a cause of action in conversion. Such a common-law action
in state court would be sufficient to meet constitutional due process requirements. Groves v. Cox,
559 F. Supp. 772, 773 (E.D. Va. 1983).
First Amendment Claim
Although incarcerated, an inmate retains his First Amendment right to the free exercise of
religion, subject to reasonable restrictions and limitations necessitated by penological goals. E.g.,

-3-af 7

<4pP£a4>;<x : B

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 4 of 7 PagelD 124

Turner v. Safley, 482 U.S. 78, 89-91 (1987); O’Lone v. Estate of Shabazz, 482 U.S. 342, 349-50
(1987); Powell v. Estelle, 959 F.2d 22,25-26 (5th Cir. 1992). To fall within the purview of the free
exercise clause of the First Amendment, a religious claim must satisfy the following two criteria:
“First, the claimant’s proffered belief must be sincerely held; the First Amendment does not extend
to ‘so-called religions which ... are obviously shams and absurdities and whose members are
patently devoid of religious sincerity.’” Callahan v. Woods, 658 F.2d 679, 683 (9th Cir. 1981)
(quoting Theriault v. Carlson, 495 F.2d 390, 395 (5th Cir. 1974)). Second, “the claim must be
rooted in religious belief, not in ‘purely secular’ philosophical concerns.” Id. (citing Wisconsin v.
Yoder, 406 U.S. 205, 215-16 (1972)). Thus, only practices associated with sincerely held religious
beliefs require accommodation by prison officials. See, e.g., U.S. v. Daly, 756 F.2d 1076, 1081 (5th
Cir. 1985) (citing United States v. Ballard, 322 U.S. 78, 86-88 (1944) and United States v. Seeger,
380 U.S. 163, 184 (1965)); Malikv. Brown, 16F.3d 330,333 (9th Cir. 1994), supplemented, 65 F.3d
148 (9th Cir. 1995); Mosierv. Maynard, 937 F.2d 1521, 1526 (10th Cir. 1991). Unfortunately, the
realities of prison life dictate that even religious practices associated with sincerely held religious
beliefs may be limited “in order to achieve legitimate correctional goals or to maintain prison
security.” O’Lone, 482 U.S. at 348.
To establish a free exercise violation, an inmate must demonstrate that prison officials
prevented him from engaging in his religious conduct without any justification related to legitimate
penological concerns. Turner, 482 U.S. at 89. In reviewing such claims, the Court considers the
following factors: (1) whether there is a rational connection between the prison regulation and the
claimed penological goal; (2) whether alternative means of exercising the right in question remain

-4- of 7

f

/

x: 8

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 5 of 7 PagelD 125

open to inmates; (3) the impact of accommodation on guards, other inmates and prison resources in
general, and; (4) whether there is an absence of ready alternatives which would evince the
reasonableness of a regulation or the existence of reasonable alternatives which would evince the
unreasonableness of a regulation. Id. In evaluating prison rules that impinge on religious practices,
the Court must accord wide deference to prison officials’ decisions in light of the need to preserve
internal order and security unless there is substantial evidence to indicate that prison administrators
have exaggerated their response to such considerations. See id.
The record reflects that Plaintiff ordered two books from “Christianbook” Distributors,
Smith’s Bible Dictionary and Unwrapping the Pharaohs. See Plaintiffs Exhibits, ECF No. 4 at 9.
The book titled Unwrapping the Pharaohs contained a DVD.1 The TDCJ contraband notice to
Plaintiff stated that there was a “CD” in the book but that Plaintiff could have the book if the
contraband was removed. See Plaintiffs Exhibits, ECF No. 4 at 1. Plaintiff makes no claim that
he did not receive the two books. Thus, it appears that only the CD (DVD) was removed from
Plaintiffs order.
Plaintiff concedes that the DVD was taken from him because it is considered contraband
under TDCJ Board Policy 03.91, Correspondence Rules. See Plaintiffs Answer to the Court’s
Question No. 1, ECF No. 28 at 1. Other than Plaintiffs conclusory allegation that the taking of the
DVD as contraband violated his First Amendment rights, he has not set forth any argument to

'iSee https://www.christianbook.com/unwrapping-egyptian-archaeology-confirms-biblical
-timeline/john-ashton/9780890514689/pd/514682?product_redirect=l&Ntt=Hj514682&item_co
de=HJ&Ntk=keywords&event=ESRCG (last visited March 27, 2019).

-5-

V

i

7

t: b

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 6 of 7 PagelD 126

support such a claim. See Complaint, ECF No. 1 at 8. The religious books were given to Plaintiff
and he has not indicated how the taking of the DVD prevented him from engaging in his religious
activities. TDCJ ’ s policy of prohibiting inmates from possessing videotapes, DVDs, and CDs arises
out of security concerns that constitute legitimate government interests logically related to the policy.
See Jones v. Shabazz, 352 Fed. App’x 910, 915 (5th Cir. 2009) (finding that TDCJ was justified in
prohibiting inmate possession of videotapes because such tapes can be used to fashion weapons).
Plaintiffs bald allegation that the taking of the DVD as contraband violated his First Amendment
rights is insufficient to maintain this claim. See Fernandez-Montes v. Allied Pilots Ass ’n, 987 F.2d
278, 284 (5th Cir. 1993) (holding that “conclusory allegations or legal conclusions masquerading
as factual conclusions will not suffice to prevent a motion to dismiss.”); Van Cleave v. United States,
854 F.2d 82, 84 (5th Cir. 1988) (requiring specific facts and noting that conclusory allegations are
insufficient to maintain a claim under § 1983). The Court notes that Plaintiff does not claim that he
is prohibited from watching religious DVDs presented by the prison Chaplaincy program.
RLUIPA Claim
Plaintiff states that Defendant Blair’s actions in taking his DVD violated his rights under the
Religious Land Use and Institutionalized Persons Act. RLUIPA does not create a cause of action
against a defendant in her individual capacity. Sossamon v. Lone Star State of Texas, 560 F.3d 316,
331 (5th Cir. 2009), aff’d sub nom. Sossamon v. Texas, 563 U.S. 277 (2011). And any award of
monetary damages against Defendant Blair in her official capacity is barred by Texas’ sovereign
immunity. Id. While the Court could award prospective injunctive relief on a viable RLUIPA claim.
Plaintiff does not seek such relief. See Complaint, ECF No. 1 at 4 (seeking only monetary damages

-6- * 7

u: 6

Case 7:15-cv-00164-0 Document 29 Filed 03/27/19

Page 7 of 7 PagelD 127

and declaratory relief). Moreover, as with his First Amendment claim, Plaintiffs RLUIPA claim
is conclusory in nature. See Complaint, ECF No. 1 at 8. Therefore, he cannot prevail on this claim.
Conclusion
A district court may dismiss a complaint filed in forma pauperis if it determines that the
action is frivolous. 28U.S.C. § 1915(e)(2)(B)(i). An action is frivolous if it lacks an arguable basis
in either law or fact. Neitzke v. Williams, 490 U.S. 319, 325 (1989); Henson-El v. Rogers, 923 F.2d
51, 53 (5th Cir. 1991). A complaint is without an arguable basis in law if it is “based on an
indisputably meritless legal theory.” Neitzke, 490 U.S. at 327. The claims set forth in the case at bar
have no arguable basis under federal law.
For the foregoing reasons, Plaintiffs conversion claim is DISMISSED without prejudice
pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) as frivolous.
Plaintiffs remaining civil rights claims are DISMISSED with prejudice pursuant to 28
U.S.C. § 1915(e)(2)(B)(i) as frivolous.
SO ORDERED this 27th day of March, 2019.

7

£ed O’Connor
UNITED STATES DISTRICT JUDGE

-7- Of- 7

Dii l B

